                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Is Not Recovering
                     All Its Costs of the
                     Lead-Based Paint Fees
                     Program
                     Report No. 13-P-0163           February 20, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Paul Curtis
                                                   Arthur Budelier
                                                   Sheree James
                                                   Guillermo Mejia




Abbreviations

CFO           Chief Financial Officer
CFO Act       Chief Financial Officers Act of 1990
CG&E          Contracts, Grants, and Expenses
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
GAO           U.S. Government Accountability Office
IFMS          Integrated Financial Management System
IOAA          Independent Offices Appropriation Act
OCFO          Office of the Chief Financial Officer
OCSPP         Office of Chemical Safety and Pollution Prevention
OECA          Office of Enforcement and Compliance Assurance
OFS           Office of Financial Services
OIG           Office of Inspector General
OMB           Office of Management and Budget
OPPT          Office of Pollution Prevention and Toxics
RRP           Renovation, Repair, and Painting
SFFAS         Statement of Federal Financial Accounting Standards
TSCA          Toxic Substances Control Act




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                   13-P-0163
                                                                                                          February 20, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review                  EPA Is Not Recovering All Its Costs of the
We performed this review to             Lead-Based Paint Fees Program
evaluate the U.S. Environmental
Protection Agency’s (EPA’s)              What We Found
assessment and collection of
accreditation and certification fees    EPA is not recovering all its costs of administering the lead-based paint program.
for its lead-based paint program.       Our analysis, based on the Agency’s rough cost estimates, showed unrecovered
Our objectives were to determine        costs of $16.4 million for fiscal years (FY) 2010 through 2014 combined.
whether EPA is recovering its           Although collections exceeded costs by $8.9 million in FY 2010, for FYs 2011
costs of administering the lead-        through 2014 costs exceeded collections by $25.3 million, thus the net difference
based paint program, and whether        of $16.4 million. In a 2009 final rule, EPA established a fee schedule under the
EPA has effective internal controls     authority of TSCA to recover the program costs incurred over a 5-year
over the assessment and                 certification cycle. However, EPA is not recovering all its costs because:
collection of fees.
                                          Renovation, Repair, and Painting firm participation is lower than projected.
The Toxic Substances Control Act
                                          EPA has not conducted a biennial cost review to determine its actual costs
(TSCA) directs EPA to address
                                           and decide whether it needs to adjust fees to reflect changes in costs.
the general public’s risk of
exposure to lead-based paint              The fees structure does not take into account all indirect costs needed to
hazards. EPA’s Office of Pollution         recover the full cost of administering the lead-based paint program.
Prevention and Toxics (OPPT)
administers the national training       By not recovering all of its program costs, the federal government did not collect
and certification systems for lead      funds that otherwise could have been available to offset the federal budget
abatement and renovation                deficit. A fees rule update could result in additional revenue of up to
activities. TSCA authorizes EPA to      $16.4 million per 5-year cycle.
establish fees to recover the costs
of administering and enforcing the      EPA’s internal controls over the assessment and collection of fees are generally
standards and requirements              effective.
applicable to lead-based paint
training programs and contractors.       Recommendations and Planned Agency Corrective Actions

This report addresses the               We recommend that the Assistant Administrator for Chemical Safety and
following EPA Goal or                   Pollution Prevention update the March 2009 fees rule to reflect the amount of
Cross-Cutting Strategy                  fees necessary to recover the program costs, and apply indirect cost rates to all
                                        applicable direct costs to obtain the full cost of the program (the Chief Financial
 Strengthening EPA’s workforce         Officer has agreed to develop the indirect cost rates). We also recommend that
  and capabilities.                     the Chief Financial Officer conduct biennial cost reviews of the lead-based paint
                                        fee collections and the full cost of operating the program to determine whether
                                        EPA is recovering its costs, and determine the appropriate Agency indirect cost
For further information,                rates to be used for EPA’s user fee programs.
contact our Office of Congressional
and Public Affairs at (202) 566-2391.   EPA agreed with all our recommendations. EPA said it will update the 2009 fees
                                        rule, modify cost analysis procedures as appropriate, conduct biennial cost
The full report is at:                  reviews, and develop appropriate indirect cost rates for user fee programs. The
www.epa.gov/oig/reports/2013/           two recommendations to the Assistant Administrator for Chemical Safety and
20130220-13-P-0163.pdf                  Pollution Prevention are unresolved pending receipt of estimated completion
                                        dates.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                        February 20, 2013

MEMORANDUM

SUBJECT:	 EPA Is Not Recovering All Its Costs of the Lead-Based Paint Fees Program
          Report No. 13-P-0163


FROM:	         Arthur A. Elkins, Jr.

TO:	           Jim Jones
               Acting Assistant Administrator for Chemical Safety and Pollution Prevention

               Barbara J. Bennett       

               Chief Financial Officer



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 60 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Paul Curtis, Product Line Director for Financial Statement Audits, at (202) 566-2523 or
curtis.paul@epa.gov.
EPA Is Not Recovering All Its Costs                                                                                         13-P-0163
of the Lead-Based Paint Fees Program


                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               4     


   2    EPA’s Lead-Based Paint Program Is Not Recovering All Its Costs...............                                              5


                Program Costs Exceed Fee Collections ......................................................                        5

                RRP Firm Participation Is Lower Than Projected ........................................                            8

                EPA Has Not Conducted a Biennial Cost Review .......................................                               9

                Fees Structure Does Not Take Into Account All Indirect Costs
                  Needed for Full Cost Recovery ................................................................                   9

                Internal Controls Over Fee Assessments and Collections Were
                  Generally Effective ...................................................................................         10 

                Conclusion...................................................................................................     11     

                Preliminary Agency Actions .........................................................................              11     

                Recommendations ......................................................................................            12     

                Agency Comments and OIG Evaluation ......................................................                         12 


   Status of Recommendations and Potential Monetary Benefits..............................                                        14




Appendices
   A    Details on Scope and Methodology..................................................................                        15 


   B    Lead-Based Paint Program Cost Estimates ....................................................                              17 


   C    Agency Response to Draft Report....................................................................                       18 


   D    Distribution .........................................................................................................    26 

                                  Chapter 1

                                   Introduction
Purpose
            We performed this review to evaluate the U.S. Environmental Protection
            Agency’s (EPA’s) assessment and collection of accreditation and certification
            fees for its lead-based paint program. With the Administration’s current focus on
            reducing the federal budget deficit, we wanted to determine whether EPA was
            charging sufficient fees to recover its costs. The objectives of our review were to
            determine whether EPA:

               	 Is recovering its cost of administering and enforcing the standards and
                  requirements applicable to lead-based paint training programs and
                  contractors.
               	 Has effective internal controls over the assessment and collection of lead
                  fees.

Background
            Title IV of the Toxic Substances Control Act (TSCA) directs EPA to regulate the
            training and certification of lead-based paint activities. These activities include
            the Lead-Based Paint Activities Program (Abatement) and the Renovation,
            Repair, and Painting (RRP) program. The Abatement program, which became
            effective in March 2000, requires all lead-based paint activities to be conducted
            according to work practice standards. The RRP program, which became fully
            effective in April 2010, requires RRP activities that disturb lead-based paint to be
            conducted using lead-safe work practices. The Abatement and RRP programs
            both require training providers to be accredited and individuals and firms
            conducting lead-based paint activities or renovations in target housing and child-
            occupied facilities to be trained and certified.

            EPA’s Office of Pollution Prevention and Toxics (OPPT), within the Office of
            Chemical Safety and Pollution Prevention (OCSPP), administers the national
            training and certification systems for lead abatement and renovation activities.
            OPPT also performs outreach activities to increase contractor awareness of the
            RRP program requirements and consumer awareness of the hazards of lead paint.
            EPA’s Office of Enforcement and Compliance Assurance (OECA) enforces the
            lead-based paint program under TSCA.

            The Abatement and RRP programs allow states, tribes, and territories to become
            authorized to administer and enforce the program in place of EPA. Currently,
            EPA has authorized 39 states, the District of Columbia, Puerto Rico, and 3 tribes


13-P-0163                                                                                         1
            for the Abatement program, and 12 states for the RRP program. EPA administers
            the Abatement program in 11 non-authorized states and the RRP program in
            38 non-authorized states, the District of Columbia, and all territories and tribes.
            EPA charges fees in the non-authorized states, territories, and tribes for training
            programs seeking accreditation, renovation firms seeking certification, and
            individuals or firms engaged in lead-based paint activities seeking certification.
            EPA does not charge fees in authorized states.

            Statutory Authorities and Guidance

            EPA collects fees for the lead-based paint programs under the authority of the
            following statutes:

                	 The Independent Offices Appropriation Act (IOAA) of 1952 authorizes
                   federal agencies to charge fees for the services they provide. The IOAA
                   requires that each charge be fair and be based on the costs to the
                   government, the value of the service to the recipient, the public policy or
                   interest served, and other relevant facts. The IOAA states that each
                   service provided by a federal agency should be self-sustaining to the
                   extent possible.

                	 TSCA Section 402 (15 U.S. Code § 2682) authorizes EPA to collect
                   accreditation and certification fees to cover the costs of administering and
                   enforcing the lead-based paint activities training and certification
                   program.

                	 The Chief Financial Officers Act of 1990 (CFO Act) requires the Chief
                   Financial Officer (CFO) to review, on a biennial basis, the fees imposed
                   by the Agency for services and things of value it provides. The CFO shall
                   make recommendations on revising those charges to reflect costs incurred
                   by it in providing those services and things of value.

            The following federal policies and standards provide guidance for implementing
            EPA’s lead fee user charges:

               	 Office of Management and Budget (OMB) Circular A-25, User Charges,
                  dated July 8, 1993, implements the IOAA. It provides for charges for
                  government goods and services that convey special benefits to recipients
                  beyond those accruing to the general public. It also establishes that user
                  charges should be set at a level sufficient to recover the full cost of
                  providing the service, resource, or property. It requires the Agency to
                  review the user charges for Agency programs biennially. Biennial reviews
                  will include assurance that existing charges are adjusted to reflect
                  unanticipated changes in costs or market values. Agencies should discuss
                  the results of the biennial review of user fees and any resultant proposals
                  in the CFO’s Annual Report required by the CFO Act.


13-P-0163                                                                                         2
               	 The Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
                  Managerial Cost Accounting Standards and Concepts, dated July 31,
                  1995, states that full cost should be considered as a primary basis for
                  setting fees for government goods and services. The full cost of an output
                  is the total amount of resources used to produce the output, including
                  direct and indirect costs. Indirect costs are costs that are jointly or
                  commonly used to produce two or more types of outputs but are not
                  specifically identifiable with any of the outputs. Typical examples of
                  indirect costs include general administrative services; general research and
                  technical support; security; rent; employee health and recreation facilities;
                  and operating and maintenance costs for buildings, equipment, and
                  utilities.

            EPA issued the following final rules related to the Abatement and RRP program
            fees:

               	 EPA’s final rule of June 9, 1999, Lead; Fees for Accreditation of Training
                  Programs and Certification of Lead-Based Paint Activities Contractors,
                  establishes fees for the Abatement program. EPA’s February 26, 1999,
                  report, Economic Analysis of the Final TSCA Section 402(a)(3) Lead-
                  Based Paint Accreditation and Certification Fee Rule, supports the 1999
                  final rule.

               	 EPA’s final rule of April 22, 2008, Lead; Renovation, Repair, and
                  Painting Program, addresses lead-based paint hazards created by
                  renovation, repair, and painting activities that disturb lead-based paint in
                  target housing and child-occupied facilities. The rule establishes RRP
                  requirements for training renovators, other renovation workers, and dust
                  sampling technicians; for certifying renovators, dust sampling technicians,
                  and renovation firms; for accrediting providers of renovation and dust
                  sampling technician training; for renovation work practices; and for
                  recordkeeping. EPA prepared a March 2008 report, Economic Analysis for
                  the TSCA Lead Renovation, Repair, and Painting Program Final Rule for
                  Target Housing and Child-Occupied Facilities. The report presents an
                  economic analysis of alternative regulatory options for the final rule. The
                  economic analysis estimated the universe of affected entities for the April
                  2008 final rule.

               	 EPA’s final rule of March 20, 2009, Lead; Fees for Accreditation of
                  Training Programs and Certification of Lead-Based Paint Activities and
                  Renovation Contractors, revised the existing fees for EPA’s Abatement
                  regulations and establishes fees for the RRP rule. The rule requires that
                  EPA establish and implement a fee schedule to recover for the U.S.
                  Treasury the Agency’s costs of administering and enforcing the standards
                  and requirements applicable to lead-based paint training programs and


13-P-0163                                                                                     3
                   contractors. EPA prepared a January 27, 2009, report, Economic Analysis
                   for the TSCA Section 402 Lead-Based Paint Program Accreditation and
                   Certification Fee Rule, to support the fees schedule. The economic
                   analysis estimated the costs of the Abatement and RRP programs and the
                   number of accreditation and certification applicants, and developed the
                   fees schedule.

            EPA deposits lead fees collected into the Environmental Services Special Fund in
            the U.S. Treasury. The receipts in the special fund are to remain available for
            appropriation to carry out the Agency’s activities for which the fees were
            collected. However, Congress has not appropriated the special fund receipts.
            Congress has been appropriating general funds, without specifying the
            Environmental Services Special Fund, to the Environmental Program &
            Management and State and Tribal Assistance Grants appropriations to finance the
            lead Abatement and RRP programs. The special fund balance grew to
            $303 million, including $43 million from lead fees, at the end of fiscal year
            (FY) 2011. Although Congress has not appropriated the special fund to finance
            the environmental programs that generated the receipts, the fund remains
            available for appropriation and offsets the federal budget deficit.

Scope and Methodology
            We conducted this review in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the review
            to obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our review objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our review objectives. We conducted our review from December 2011
            through July 2012. Appendix A contains details on our scope and methodology.




13-P-0163                                                                                      4
                                  Chapter 2

               EPA’s Lead-Based Paint Program 

                Is Not Recovering All Its Costs 

            EPA is not recovering all its costs of administering the lead-based paint program.
            Our analysis, based on the Agency’s rough cost estimates, showed unrecovered
            costs of $16.4 million for FYs 2010 through 2014 combined. Although collections
            exceeded costs by $8.9 million in FY 2010, for FYs 2011 through 2014 costs
            exceeded collections by $25.3 million, thus the net difference of $16.4 million.
            TSCA Section 402 (15 U.S. Code § 2682) authorizes the EPA Administrator to
            establish fees to cover the costs of administering and enforcing the standards and
            regulations of the program. In a 2009 final rule, EPA established a fee schedule
            designed to recover the program costs incurred over a 5-year certification cycle.
            However, EPA is not recovering all its costs because:

                 RRP firm participation is lower than projected.
                 EPA has not conducted a biennial cost review to determine its actual costs
                  and decide whether it needs to adjust fees to reflect changes in costs.
               	 The fees structure does not take into account all applicable indirect costs
                  and therefore does not provide for recovering the full cost of administering
                  the program.

            By not recovering all of its costs of the program, the federal government did not
            collect funds that otherwise could have been available to offset the federal budget
            deficit. A fees rule update could result in potential additional revenue of up to
            $16.4 million per 5-year cycle.

Program Costs Exceed Fee Collections
            Although EPA is collecting the fees authorized in the 2009 final rule, it is not
            recovering all its costs of administering the program. EPA’s economic analysis
            for the 2009 rule formed the basis for the fee structure in the final rule. The
            economic analysis supports the fees development for the Abatement and RRP
            programs. The economic analysis projected the program activity and costs for a
            5-year cycle to correspond with the RRP program requirement for renovation
            firms to re-certify every 5 years. Because the RRP program was new, EPA
            estimated the number of RRP applications from firms and training providers to be
            much greater in the first year than in the 4 subsequent years of the 5-year cycle.
            EPA designed its fee structure to recover the anticipated program costs at the
            estimated activity levels for the 5-year cycle. Table 1 illustrates the economic
            analysis 5-year cost estimates for the Abatement and RRP programs.




13-P-0163                                                                                     5
            Table 1: Summary of estimated Abatement and RRP costs ($ in millions)
                              Year 1       Year 2       Year 3       Year 4       Year 5
                             FY 2010      FY 2011      FY 2012      FY 2013      FY 2014       Total
             Abatement          $1.2         $1.2         $1.2         $1.2         $1.2        $6.0
             RRP                61.5         22.2         22.1         22.0         21.9       149.7
             Total             $62.7        $23.4        $23.3        $23.2        $23.1      $155.7
            Source: EPA’s Economic Analysis for the TSCA Section 402 Lead-Based Paint Program
            Accreditation and Certification Fee Rule, dated January 27, 2009, Executive Summary,
            tables ES-4 and ES-8.

            EPA had not conducted a formal cost study to determine its actual program costs.
            At our request, OPPT, with assistance from OECA, developed a rough estimate of
            its actual costs for FYs 2010 and 2011 based on spending and labor use. OPPT
            stated that the estimated amounts were tentative because EPA prepared them
            quickly without performing a thorough cost analysis. Although tentative, the
            rough estimate was the most useful program cost information available at the time
            to help determine whether EPA is recovering its program costs. EPA’s cost
            estimate, including Office of Inspector General (OIG) calculations for indirect
            costs, was $19.2 million for FY 2010 and $20.3 million for FY 2011. Appendix B
            contains details of the cost estimate. EPA’s lead fee collections recorded in the
            Integrated Financial Management System (IFMS), the Agency’s accounting
            system, totaled $22.0 million for FY 2010 and $9.1 million for FY 2011.
            Therefore, EPA’s initial rough cost estimate indicated that EPA did not recover
            $8.5 million of its costs for the 2 years combined, as illustrated in table 2.

            Table 2: Summary of fee collections and estimated program costs ($ in millions)
                                                               FY 2010        FY 2011           Total
             Fee collections                                    $22.0            $9.1           $31.1
             Estimated costs                                     19.2            20.3            39.6
             Excess fees / (unrecovered costs)                   $2.8          $(11.2)          $(8.5)
            Source: OIG analysis of EPA data. (The numbers in the table may not add up due to rounding.)

            EPA’s January 2009 economic analysis projected the level of Abatement and
            RRP applications and program costs to remain about the same for the final 4 years
            of the 5-year cycle. EPA expects to achieve some future cost reductions through
            improvements in the program’s database and applications processing, and some
            cost increases in program enforcement. However, EPA did not project the amount
            of expected future cost reductions. If the fee collections and overall costs
            experienced in the second year remain at approximately the same levels in the
            final 3 years of the cycle, the estimated unrecovered costs for the 5-year cycle
            would be $42 million, as illustrated in table 3. We present the amounts in table 3
            to provide a perspective on the potential magnitude of the unrecovered costs. The
            amounts are based on estimates and projections, and actual results may vary.




13-P-0163                                                                                                  6
            Table 3: Estimated unrecovered costs for the 5-year cycle ($ in millions)
                                 FY       FY          FY        FY          FY
                                2010     2011     2012         2013        2014                  Total
             Fee collections   $22.0       $9.1       $9.1       $9.1        $9.1                 $58.4
             Program costs      19.2       20.3        20.3      20.3        20.3                 100.4
             Total              $2.8     $(11.2)   $(11.2)     $(11.2)     $(11.2)               $(42.0)
            Source: OIG analysis of EPA data.

            OCSPP was concerned that OIG based its findings on the preliminary data from
            OPPT’s rough cost estimate. According to OCSPP, the preliminary rough cost
            estimate was not an authoritative and complete statement of program costs.
            Therefore, OCSPP conducted a second, more refined cost estimate to provide a
            more accurate picture of the lead program costs. OCSPP presented its revised
            estimate for the 5-year cycle to OIG on October 3, 2012, as an attachment to
            EPA’s response to OIG’s draft report (Appendix C). The revised cost estimate
            showed unrecovered costs of $16.4 million for FYs 2010 through 2014 combined,
            as illustrated in table 4. The fee collections are the actual amounts for FY 2010
            and FY 2011. OCSPP derived the 2012 amounts from the Agency’s FY 2012
            operating plan and 2013 amounts from the President’s FY 2013 Budget. OCSPP
            estimated the 2014 amounts from the FY 2013 figures.

            Table 4: Revised estimated unrecovered costs for the 5-year cycle ($ in millions)
                                       FY          FY          FY          FY           FY
                                      2010        2011        2012        2013         2014         Total
             Fee collections         $22.0          $8.7        $4.1        $4.7         $4.9       $44.3
             Program costs            13.1          14.3        10.9        11.2         11.2        60.6
             Total                    $8.9         $(5.6)      $(6.8)      $(6.5)       $(6.3)     $(16.4)
            Source: OIG analysis of EPA data. (The numbers in the table may not add up due to rounding.)

            Although EPA’s revised estimate reduced the unrecovered costs for the 5-year
            cycle from $42 million to $16.4 million, our findings did not change. EPA’s lead-
            based paint program is not recovering all its costs. The significant variance in
            calculated program costs between the two estimates underscores the need for EPA
            to conduct a biennial cost review to determine its actual costs.

            EPA is not recovering all of its costs of administering the lead-based paint
            program because:

                  RRP firm participation is lower than projected.
                  EPA has not conducted a biennial cost review to determine its actual costs
                   and decide whether it needs to adjust fees to reflect changes in costs.
                	 The fees structure does not take into account all applicable indirect costs
                   and therefore does not provide for recovering the full cost of administering
                   the lead-based paint program.




13-P-0163                                                                                                    7
RRP Firm Participation Is Lower Than Projected
            The RRP program applies to renovation activities in target housing and child-
            occupied facilities. Under the RRP final rule of April 22, 2008, firms that are
            subject to the regulations need to obtain EPA certification, and training providers
            must obtain accreditation for their RRP courses. EPA’s economic analysis for the
            2008 rule estimated the universe of affected entities for the final rule. EPA based
            the estimate on the number of renovations estimated to occur in rental target
            housing and child-occupied facilities. EPA’s economic analysis estimated the
            number of renovation firms as well as the number of training providers that would
            be needed to perform renovation jobs and train the needed workforce in years
            1 through 5 of the program.

            EPA’s economic analysis overestimated the level of firm participation in the
            program and the number of RRP applications. EPA’s 2009 economic analysis
            estimated the number of RRP applications from firms seeking certification to be
            approximately 212,000 for the first year, 72,000 for the second through the fourth
            year, and 71,000 for the fifth year of the 5-year cycle. Since the program became
            fully effective April 22, 2010, EPA considered the first full year to run through
            April 2011 and the second year through April 2012. EPA certified approximately
            87,000 firms the first full year and 13,000 the second year. The total number of
            firms certified for the first 2 years of the 5-year cycle was about 35 percent of the
            estimated total, as illustrated in table 5.

            Table 5: Summary of estimated and actual firm certifications
                                                    Year 1         Year 2          Total
             Estimated certifications              212,000         72,000         284,000
             Actual certifications                  87,000         13,000         100,000
             Percent of estimate realized            41%            18%             35%
            Source: OIG analysis of EPA data.

            Based on the expected applications, EPA estimated the program costs and related
            fee collections to be $61.5 million for the first year and approximately $22 million
            for each of the subsequent 4 years (table 1). The actual fee collections of
            $22.0 million for FY 2010 and $9.1 million for FY 2011 (table 2) were less than
            anticipated due to a lower-than-expected level of firm participation.

            EPA stated that when it conducted its economic analysis for the 2008 RRP final
            rule economic conditions were more favorable than when the RRP program began
            in 2010. Consequently, the demand for certified firms is less than EPA anticipated
            when it developed the rule. EPA said it is pursuing efforts to increase certification
            of renovation firms. OPPT has developed a prioritized list of outreach activities
            based on target audiences (contractors, consumers, and the health care sector).
            OPPT and OECA are implementing activities in FY 2012 to increase
            (1) contractor awareness and compliance with the RRP rule requirements,
            (2) consumer demand for certified firms, and (3) enforcement of the RRP rule.


13-P-0163                                                                                       8
EPA Has Not Conducted a Biennial Cost Review
            EPA has not conducted a formal cost study to determine its actual lead-based
            paint program costs and decide whether it needs to adjust the fees to reflect
            changes in the costs. The CFO Act and OMB Circular A-25 require the Agency to
            review the user charges for Agency programs biennially. Agencies should discuss
            the results of the biennial review of user fees and any resultant proposals in the
            CFO’s Annual Report required by the CFO Act. EPA stated that it conducts an
            economic analysis to support setting fees per the notice-and-comment rulemaking.
            It also manages its costs for administering and enforcing the Abatement and RRP
            programs to ensure that annual costs are limited to the funds appropriated
            annually by Congress. However, these activities do not identify the actual
            program costs incurred.

            OPPT stated that it estimated its costs for the 2009 economic analysis but had not
            performed a biennial cost review. OPPT stated that while the Agency’s cost
            accounting system can distinguish certain types of costs (i.e., Superfund Program
            and the Working Capital Fund), EPA has not implemented an approach to track
            the lead user fee program costs. Therefore, EPA would have to conduct a manual
            cost study to determine the allocable program costs.

            EPA does not have internal guidance for conducting a biennial cost review. A
            systematic approach to reviewing user fee program costs would help EPA conduct
            biennial cost studies. Without performing the biennial cost studies prescribed by
            the CFO Act and OMB guidance, EPA does not have the cost data necessary to
            determine whether it should update the fees rule.

            EPA discussed the results of its user fees biennial review in the FY 2011 Agency
            Financial Report, as required by OMB Circular A-25. The report concluded that
            EPA’s user fees are in compliance with statutory authority, but the report did not
            discuss user fee cost reviews. In a discussion with the OIG, EPA’s Office of the
            Chief Financial Officer (OCFO) stated that it will conduct biennial cost reviews
            for EPA’s user fee programs. For the next biennial user fees report, OCFO said it
            will have EPA’s user fee programs include detail on their cost reviews.

Fees Structure Does Not Take Into Account All Indirect Costs Needed
for Full Cost Recovery
            When EPA prepared an economic analysis to estimate the program costs and
            develop a fee structure, it did not include all applicable indirect costs. The 2009
            economic analysis applied indirect costs to direct labor but not to other direct
            costs, such as contract costs. OMB Circular A-25 requires the Agency to recover
            the full cost of providing a service, including indirect costs. By not including all
            applicable indirect costs in its economic analysis, EPA developed a fee structure
            that did not recover the full cost of the program.



13-P-0163                                                                                          9
            EPA’s 2009 economic analysis determined the fringe benefits and indirect costs
            applicable to direct labor by applying a multiplier of 1.6 times the direct labor.
            EPA staff stated that the multiplier accounted for both labor benefits and indirect
            costs. The application of a 1.6 multiplier was consistent with EPA’s February
            1999 economic analysis for the June 1999 lead-based paint accreditation and
            certification fee rule. However, EPA did not have supporting calculations for the
            multiplier. We believe that an indirect cost rate based on Agency cost calculations
            would be a more reliable multiplier for applying indirect costs to direct costs.

            EPA has not developed indirect cost rates specifically for its user fee programs.
            However, OCFO develops annual indirect cost rates for interagency agreements.
            OCFO annually develops interagency agreement indirect cost rates for several
            headquarters program offices and each region. OCFO posts the annual rates on
            EPA’s Office of Grants and Debarment Intranet website. Because the interagency
            agreement indirect cost rates are based on OCFO’s annual calculations, we
            consider them to be the most reliable rates available for use by user fee programs.

            OPPT’s original cost estimates for FYs 2010 and 2011 include direct costs
            incurred by OPPT for administering the lead Abatement and RRP programs and
            OECA for performing enforcement activity. To determine full cost estimates, we
            applied the interagency agreement indirect cost rates to the cost estimates. We
            applied OCSPP’s indirect cost rates of 8.63 percent for FY 2010 and
            10.24 percent for 2011 to OPPT’s direct costs, and OECA rates of 6.39 percent
            for FY 2010 and 7.61 percent for FY 2011 to OECA’s direct costs. Applying the
            indirect cost rates added $3.2 million to cost estimates for the 2 years combined.
            We included the $3.2 million indirect costs in our calculations of unrecovered
            costs for FY 2010 and FY 2011 combined and the 5-year cycle. OCSPP’s revised
            cost estimate applied the appropriate indirect costs rates to direct costs and
            included $2.2 million indirect costs. OCFO should determine whether the
            interagency agreement rates are general purpose rates and, therefore, are
            appropriate for use by user fee programs, or whether it should develop new rates
            specifically for the user fee programs. Applying appropriate indirect cost rates to
            direct costs will help EPA recover the full cost of the program.

Internal Controls Over Fee Assessments and Collections Were
Generally Effective

            We found EPA’s internal controls over the assessment and collection of fees to be
            generally effective. However, we identified a minor internal control issue related to
            untimely recording of collections. OMB and the U.S. Government Accountability
            Office (GAO) require federal agencies to establish and maintain internal controls.
            Internal controls are an integral component of an organization’s management that
            provide reasonable assurance that the organization achieves effectiveness and
            efficiency of operations, reliability of financial reporting, and compliance with
            applicable laws and regulations. Although EPA’s internal controls were generally



13-P-0163                                                                                    10
            effective, the minor internal control issue we found compromised EPA’s ability to
            ensure that management’s directives are followed and assets are safeguarded.
            EPA’s Office of Financial Services (OFS) did not consistently record lead
            accreditation and certification fee collections timely. We tested 45 collection
            items and found that 27 (60 percent) were recorded more than 3 working days
            after receiving notice that the U.S. Treasury received the collection. OFS recorded
            the collections, totaling $21,320, between 5 and 21 days after receiving notice of
            the collection. EPA’s Resource Management Directive System 2540-03, Cash
            Management Collections and Deposits, requires the Agency to record collections
            in the financial system within 3 working days of receiving notice of the collection.
            GAO’s Standards for Internal Control in the Federal Government states that
            transactions should be promptly recorded to maintain their relevance and value to
            management in controlling operations and making decisions.

            OFS staff stated that during the period of October 2010 through February 2011
            OFS experienced a shortage in resources due to an unexpected illness of one of
            the staff members, which impacted the timeliness of recording collections in
            IFMS. Recording fee collections untimely increases the risk of inaccurate
            information in the Agency’s accounting system. Because the untimely recording
            was temporary and OFS has procedures to record collections timely, we are not
            making a recommendation.

Conclusion

            EPA is not recovering all its costs of administering the lead-based paint program.
            EPA should prepare a more accurate estimate of program participation and
            program costs, apply appropriate indirect costs to obtain full cost recovery, and
            update the 2009 fees rule to reflect the amount of fees necessary to recover the
            program costs. By not recovering all of its costs, the federal government did not
            collect funds that otherwise could have been available to offset the federal budget
            deficit. The President’s Budget Message for FY 2012 states that reducing the
            long-term federal deficit must be a priority. The federal government is looking for
            ways to save money and cut unnecessary costs. We believe that EPA could help
            the federal government in this endeavor by collecting more lead fees to recover
            more of its costs. A fees rule update could result in potential additional revenue of
            up to $16.4 million per 5-year cycle based on estimated revenue and program
            costs for the current cycle. A biennial cost review could provide a more precise
            determination of potential additional revenue.

Preliminary Agency Actions
            In response to our prior audit report, EPA Should Update Its Fees Rule to Recover
            More Motor Vehicle and Engine Compliance Program Costs (Report No.
            11-P-0701, dated September 23, 2011), OCFO agreed to issue guidance to EPA’s
            user fee programs for conducting biennial reviews. Therefore, we make no
            recommendation for OCFO to issue user fee guidance.


13-P-0163                                                                                     11
            OPPT plans to update the fees rule in conjunction with other regulatory changes
            in the lead program, e.g., rules underway to address renovation activities in other
            buildings. Accomplishing that initiative should provide additional recurring
            annual revenue in future years.

            During our field work, EPA addressed the level of program participation by planning
            outreach activities in FY 2012 to increase certification of renovation firms.

Recommendations
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1.	 Update the March 20, 2009, fees rule to reflect the amount of fees
                   necessary for the program to recover the costs of implementing and
                   enforcing the program.

               2.	 Modify its lead-based paint program cost analysis procedures to apply
                   indirect cost rates to all applicable direct costs in order to obtain the full
                   costs of the program. (The CFO will develop the indirect cost rates.)

            We recommend that the Chief Financial Officer:

               3.	 Conduct biennial cost reviews of the lead-based paint program fee
                   collections and the full cost of operating the program to determine whether
                   EPA is recovering its costs.

               4.	 Determine the appropriate Agency indirect cost rates to be used for EPA’s
                   user fee programs.

Agency Comments and OIG Evaluation

            EPA agreed with the recommendations and provided its intended corrective
            actions. EPA provided estimated completion dates for recommendations 3 and 4.
            Recommendations 1 and 2 are unresolved pending receipt of the estimated
            completion dates.

            EPA was concerned that the OIG based its findings on the preliminary data from
            OPPT’s rough cost estimate. The preliminary data was not an authoritative and
            complete statement of program costs. Therefore, EPA conducted a more refined
            cost analysis. It presented a projected shortfall over 5 years that was significantly
            lower than the shortfall in the initial rough cost estimate. At EPA’s request, we
            included the results of EPA’s second cost analysis in this report. The second cost
            analysis did not change the conditions we had previously identified, and we did
            not change our findings and conclusions.


13-P-0163                                                                                           12
            EPA stated that it would need to conduct a much more accurate cost study after
            implementing the program for a full 5-year certification cycle. We agree that EPA
            needs a more accurate cost study. However, EPA should obtain a cost study every
            other year by conducting biennial cost reviews. EPA agrees and plans to conduct
            a biennial cost review of the lead-based paint program in FY 2013.




13-P-0163                                                                                  13
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion       Claimed       Agreed-To
    No.      No.                          Subject                         Status1        Action Official             Date          Amount         Amount

     1       12     Update the March 20, 2009, fees rule to reflect the     U       Assistant Administrator for                      $42,0002        $16,400
                    amount of fees necessary for the program to                       Chemical Safety and
                    recover the costs of implementing and enforcing                   Pollution Prevention
                    the program.

     2       12     Modify its lead-based paint program cost analysis       U       Assistant Administrator for
                    procedures to apply indirect cost rates to all                    Chemical Safety and
                    applicable direct costs in order to obtain the full               Pollution Prevention
                    costs of the program. (The CFO will develop the
                    indirect cost rates.)

     3       12     Conduct biennial cost reviews of the lead-based         O         Chief Financial Officer      11/15/13
                    paint program to determine whether EPA is
                    recovering its costs.

     4       12     Determine the appropriate Agency indirect cost          O         Chief Financial Officer      9/30/133
                    rates to be used for EPA’s user fee programs.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress

2 The potential monetary benefit represents the cost savings from a fees rule update for a subsequent 5-year certification cycle, based on the estimated and

projected unrecovered program costs for the current 5-year cycle ending September 30, 2014. We based the claimed amount on OCSPP’s original cost estimate
and the agreed-to amount on the second cost estimate.
3
  EPA originally provided a planned completion date of December 31, 2012, in its response to the draft report and subsequently updated it to September 30, 2013.



13-P-0163                                                                                                                                                  14
                                                                                     Appendix A

                 Details on Scope and Methodology
We reviewed EPA’s processes for the assessment and collection of lead accreditation and
certification fees. To gain an understanding of the processes, we:

      Reviewed the applicable laws, regulations, fees rules and supporting economic analyses,
       and program information
      Reviewed program operating procedures
      Interviewed OPPT, OCFO, and OECA personnel
      Examined the federal lead-based paint program database

We obtained fee collections and roughly estimated program operating costs for FYs 2010 and
2011 and determined whether the collections were sufficient to recover all program operating
costs. We examined EPA’s economic analyses and their projections of program activity and
related program costs.

We tested FY 2011 fee transactions to determine whether EPA assessed the proper fee amount,
collected the fee before issuing an accreditation or certification, and recorded the collection
timely. We determined whether EPA approved and paid the proper refund amounts. We used the
monetary unit method of statistical sampling to test 45 fee collections totaling $53,420,
5 fee credit transactions totaling $76,900, and 10 refund transactions totaling $2,085. The fee
collections universe included 32,686 transactions totaling $9,837,066, and the refunds universe
included 3,079 transactions totaling $776,653. We used random sampling to test 45 accreditation
and certification applications out of 29,779 applications in FY 2011 to search for accreditations
and certifications issued with no corresponding fee collection.

We assessed the internal controls related to assessing, collecting, and refunding fees. We gained
an understanding of the internal controls through interviews with OPPT and OCFO personnel,
and examination of fees database information and the related supporting documents. We
reviewed EPA’s OCSPP and OCFO FY 2011 management integrity assurance letters for
reported internal control weaknesses.

We did not assess the reliability of data in OCSPP’s information systems because their use did
not materially affect our findings, conclusions, or recommendations. We verified fee collection,
refund, and certification data by examining supporting documentation and accessing financial
information in IFMS. We did not review the internal controls over IFMS from which we
obtained financial data, but relied on the review conducted during the audit of EPA’s FY 2011
financial statements.

Prior Reports Reviewed

We reviewed the prior EPA OIG and GAO reports listed in table A-1. The EPA OIG report had
findings and recommendations related to fee collections and recovery of program costs. The
three GAO reports contained information relevant to our review. The GAO reports included a


13-P-0163                                                                                       15
survey of federal agency fee reviews, a study of how user fee design characteristics influenced
the effectiveness of user fees, and a response to a congressional request about user fee reviews.
We used the information and issues disclosed in the EPA OIG and GAO reports to help identify
issues as we conducted our review.

Table A-1: Prior reports reviewed
                       Report Title                          Report No.              Date
 2012 Annual Report: Opportunities to Reduce
 Duplication, Overlap and Fragmentation, Achieve         GAO-12-342SP         February 28, 2012
 Savings, and Enhance Revenue
 EPA Should Update Its Fees Rule to Recover More
                                                         11-P-0701            September 23, 2011
 Motor Vehicle and Engine Compliance Program Costs

 Federal User Fees: A Design Guide                       GAO-08-386SP         May 29, 2008

 Federal User Fees: Some Agencies Do Not Comply with
                                                         GAO-GGD-98-161       June 30, 1998
 Review Requirements
Source: OIG analysis.

Report No. GAO-12-342SP presented cost savings or revenue enhancement opportunities,
including GAO’s 2011 survey of federal agency fee reviews. The survey responses indicated
that for most fees, agencies (1) had not discussed fee review results in annual reports, and
(2) had not reviewed the fees and were inconsistent in their ability to provide fee review
documentation.

Report No. 11-P-0701 disclosed that an EPA program was not collecting enough fees to
recover all reasonable program costs. EPA had not conducted a formal cost study since 2004
to determine its actual program costs, and had not updated the fees rule to recover more
costs. EPA agreed with the report’s recommendations and plans to update the fees rule and
conduct biennial reviews.

Report No. GAO-08-386SP reported on a study of how user fee design characteristics may
influence the effectiveness of user fees. GAO examined how the four key design and
implementation characteristics of user fees—how fees are set, collected, used, and
reviewed—may affect the economic efficiency, equity, revenue adequacy, and administrative
burden of cost-based fees. The principles outlined in the design guide present a framework
for user fee design.

Report No. GAO/GGD-98-161 was a response to a congressional request to review agencies’
adherence to the user fee review and reporting requirements in the CFO Act and OMB
Circular A-25. The report disclosed that 6 of the 24 CFO agencies reviewed all of their
reported user fees at least every 2 years as required by OMB Circular A-25 during FYs 1993
through 1997, 3 reviewed all of their reported fees at least once, 11 reviewed some of their
reported fees, and 4 did not review any of their reported fees during this period. The agencies
provided various reasons for not reviewing fees, including insufficient cost data and because
some of the fees set by legislation could not be changed without new legislation.



13-P-0163                                                                                         16
                                                                                Appendix B

            Lead-Based Paint Program Cost Estimates
Table B-1: EPA’s Initial Cost Estimates for FYs 2010 and 2011
                                                                 FY 2010       FY 2011
 OCSPP
 Personnel Compensation and Benefits                             $9,048,500    $8,587,900
 Travel                                                             143,200        83,200
 Contracts, Grants, and Expenses (CG&E) – regional offices          497,000       495,000
 CG&E – State and Tribal Assistance Grants and contracts          4,647,700     5,864,900
    Subtotal                                                    $14,336,400   $15,031,000
 OCSPP Indirect Cost Rate                                            8.63%        10.24%
 OCSPP Indirect Costs                                            $1,237,231    $1,539,174
 Working Capital Fund                                               376,000       441,800
 OCSPP Full Costs                                               $15,949,631   $17,011,974

 OECA
 Personnel Compensation and Benefits                             $1,834,000    $1,828,000
 CG&E – regional offices                                          1,200,000     1,200,000
   Subtotal                                                       3,034,000     3,028,000
 OECA Indirect Cost Rate                                             6.39%         7.61%
 OECA Indirect Costs                                                193,873       230,431
 Working Capital Fund                                                61,000        61,000
 OECA Full Costs                                                 $3,288,873    $3,319,431

 OCSPP and OECA Full Costs (total direct and indirect costs)    $19,238,504   $20,331,405
Source: OIG analysis of EPA data.




13-P-0163                                                                                   17
                                                                                    Appendix C


                    Agency Response to Draft Report

                                   (Received October 3, 2012)
MEMORANDUM

SUBJECT:       Response to OIG Draft Report No. OA-FY12-0107

FROM:          James J. Jones
               Acting Assistant Administrator

               Barbara J. Bennett
               Chief Financial Officer

TO:            Arthur A. Elkins, Jr.
               Inspector General


Thank you for the opportunity to respond to the findings and recommendations in the Office of
Inspector General's (OIG’s) Draft Report entitled “EPA Is Not Recovering All Its Costs of the
Lead-Based Paint Fees Program” (August 30, 2012).

This memorandum summarizes the Office of Chemical Safety and Pollution Prevention
(OCSPP) and the Office of the Chief Financial Officer’s (OCFO) response to the OIG’s findings,
along with our position on each of the Draft Report’s recommendations. For those report
recommendations with which the agency agrees, we have provided either high-level intended
corrective actions and estimated completion dates, or reasons why we are unable to provide high-
level intended corrective actions and estimated completion dates at this time. For those report
findings and recommendations with which the agency does not agree, we have explained our
position.

Overall Position:

The cost data upon which the OIG has based its findings and recommendations was provided by
OCSPP with the understanding that it was to be used as part of preliminary research only, and
was hence not an authoritative and complete statement of program costs. Accordingly, OCSPP
has significant concerns about the use of this preliminary data to make the findings presented in
the Draft Report. OCSPP expressed this concern to OIG during discussions of its preliminary
findings on April 10, 2012, and also informed OIG that OCSPP would be undertaking an effort
to gather refined data for the OIG’s use in its report.

OCSPP is providing this refined cost data to the OIG as an attachment to this memorandum. As
this refined cost data provides a much more accurate picture of the lead program costs for FY10



13-P-0163                                                                                       18
through FY14, it is our hope that the OIG will carefully consider the revised cost data in
finalizing its report.

Discussion of Findings:

   Finding 1. Program Costs Exceed Fee Collections:

The OIG’s analysis to support this finding consists of a comparison between estimated fee
collections and program costs for the Lead-based Paint Program for the years FY2010 to
FY2014. The Draft Report acknowledges that “EPA had not conducted a formal cost study to
determine its actual program costs” and that at the request of the OIG the program office
“developed a rough estimate” of these costs for FY2010 and FY2011 “quickly without
performing a thorough cost analysis.” Despite these significant reservations expressed about the
accuracy of the underlying data, the Draft Report nevertheless relies on this data to extrapolate
program costs for FY 2012 to FY2014, and concludes with numerical specificity that there is a
shortfall in unrecovered program costs for the Lead-based Paint Program for the five-year period
in question.

OCSPP cautions against attaching a specific dollar number to the “shortfall in unrecovered
program costs” without conducting a comprehensive cost analysis, because it conveys a false
sense of precision about the data underlying that conclusion. OCSPP believes it is inadvisable to
predict five years of program cost and revenue based on preliminary and limited data, and it is
misleading to project a specific dollar amount of shortfall using preliminary data. A much more
accurate cost study would need to be conducted after implementing the Lead-based Paint
Program for a full five-year certification cycle.

Furthermore, OCSPP finds the Draft Report’s extrapolation of costs from two years of data (FY
2010 and FY2011) to a five-year time frame particularly problematic because it fails to make any
adjustments or even to discuss the complexity and cyclical nature of the Lead-based Paint
Program. As discussed extensively with the OIG, taking this approach to extrapolating costs does
not account for the efficiencies and cost reductions that OCSPP expects to accrue as the RRP
program matures through the first five-year certification cycle. As a certification program
matures, the program becomes more efficient in processing and reviewing applications, thereby
reducing labor costs. This likely outcome is evident from the reduction of fees collected
associated with the abatement portion of the Lead-based Paint Program that EPA realized in the
1999 Fee Rule. Likewise, as has been experienced with the abatement program, as states and
tribes become authorized to operate a lead program in lieu of the EPA program, program costs
will commensurately decrease. The Lead-based Paint Program has made certain investments in
the first two years of the program in IT and other infrastructure that increase efficiency, which
will in turn decrease labor costs and, hence, overall program cost.

Due to OCSPP’s significant concern with data underlying the Draft Report’s conclusions,
OCSPP has conducted an in-depth analysis of fee-related program activities (see Appendix A).
Briefly, OCSPP compiled a list of Lead Program activities and identified those which are fee-
related and those which are not. OCSPP then gathered information from HQ and all ten Regional
Office Lead Program components in order to provide more refined Lead Program cost estimates.



13-P-0163                                                                                      19
OCSPP’s refined analysis indicates actual program costs for FY10 and FY11 were $13.1 million
and $14.2 million, respectively. This is in contrast to the preliminary estimates of $19.2 and
$20.3 million, respectively, which were cited in the OIG’s Draft Report. In addition, rather than
simply using FY11 costs for FY12-14 as the OIG did, OSCPP has provided a cost estimate for
FY12 that is based on actual costs for 9 months of this fiscal year ($10.9 million) and an FY13
cost estimate that is based on the President’s Budget ($11.2 million). With this actual data
available, OCSPP only had to project FY14 costs, which was done using FY13 costs ($11.2
million). Details on OCSPP’s refined cost estimates are provided in Appendix A.

In summary, OCSPP’s refined cost estimates are based on more realistic data rather than
simplified assumptions, and include refined data for FY10 and FY11, an FY12 estimate based on
actual data for 9 months of the fiscal year, FY13 data from the President’s Budget, and projected
data for FY14. Based on this refined analysis, OCSPP determined that the Lead-based Paint
Program recovered its program costs in the first two years, and the projected shortfall over five
years is significantly lower than the rough estimates OIG used to make its findings in the Draft
Report.

   Finding 2. RRP Firm Participation is Lower Than Projected

The Draft Report states that “EPA’s economic analysis overestimated the level of firm
participation in the program and the number of RRP applications.” This language implies that
EPA somehow erred in estimating the number of firms needing certification. An economic
analysis is developed to support rulemaking, and is therefore a projection based on the facts
available at the time. The estimates of Lead-based Paint Program participation were made to
support the rule-making and underwent the usual Agency, OMB and public review processes
without any major comment as to the projections of firm participation. The successful
completion of this process and the lack of comments on these estimates indicates that, at the
time, they were reasonable, and that there was no error in EPA’s approach or conclusions.
However, EPA’s projections were made prior to the severe economic downturn experienced in
the U.S., which likely caused, if not strongly contributed to, the number of firms actually
participating in the RRP program to be at the lower end of the projected range. Nevertheless,
EPA’s economic analysis for the Lead-based Paint Program included a sensitivity analysis to
account for variance in economic conditions. A review of the data indicates that the actual
participation has fallen within the range estimated within that sensitivity analysis, further
supporting that the projections were appropriate for their purpose.

   Finding 3. EPA Has Not Conducted a Biennial Cost Review

OCFO concurs in this finding.

   Finding 4. Fees Structure Does Not Take Into Account All Indirect Costs Needed for Full
      Cost Recovery

The Draft Report states that “When EPA prepared an economic analysis to estimate the program
costs and develop a fee structure, it did not include all applicable indirect costs.” As OCSPP
explained in discussions with the OIG, the economic analysis for the 2009 Fees Rule is an



13-P-0163                                                                                       20
estimate of future costs for use by decision-makers (along with other information including
program participation rate forecasts and effects of fees on small businesses) in considering
regulatory options. OCSPP believes a much more accurate estimate could be conducted after
implementing the RRP aspect of the lead program for a five-year certification cycle and after
having performed biennial reviews following guidance provided by the OCFO.

   Finding 5. Internal Controls Over Fee Assessments and Collection Were Generally Effective

OCFO concurs in this finding.

Discussion of Recommendations:

Recommendation 1. Update the March 20, 2009, fees rule to reflect the amount of fees
   necessary for the program to recover the costs of implementing and enforcing the program.

Concur. OCSPP will proceed with updating the 2009 Fees Rule following completion of at least
one 5-year cycle of the RRP accreditation and certification program, if warranted, based on
findings from at least two consecutive biennial reviews that the Lead Program costs continue to
exceed the amount fees collected.

      OCSPP is unable to provide an estimated completion date at this time.

Recommendation 2. Modify its lead-based paint program cost analysis procedures to apply
   indirect cost rates to all applicable direct costs in order to obtain the full costs of the program.
   (The CFO will develop the indirect cost rates.)

Concur. Upon clarification of applicable indirect cost rates by OCFO, OCSPP will modify cost
analysis procedures as appropriate.

      OCSPP is unable to provide an estimated completion date at this time.

Recommendation 3. Conduct biennial cost reviews of the lead-based paint fee collection and
   full cost of operating the program to determine whether EPA is recovering costs.

Concur. In accordance with Office of Management and Budget Circular A-25, User Charges and
the Chief Financial Officer’s Act of 1990, the Office of the Chief Financial Officer will conduct
a review of the Lead-Based paint fee collections and the full cost of operating the program to
determine whether EPA is recovering its costs. This will be performed in accordance with the
next biennial cost review scheduled for FY 2013.

      Estimated completion date: November 15, 2013

Recommendation 4. Determine the appropriate Agency indirect cost rates to be used for EPA’s
   user fee programs.




13-P-0163                                                                                           21
Concur. OCFO will develop the appropriate indirect cost rate for the EPA user fee programs
including the lead-based paint program.

      Estimated completion date: December 31, 2012

Conclusion: 


Thank you for the opportunity to comment on this Draft Report. If you have questions, please 

feel free to contact me, or to have your staff contact Janet Weiner at (202) 564-2309. 


Attachment A 





13-P-0163                                                                                        22
                                                    APPENDIX A


     OCSPP Lead-based Paint Program Cost Estimates

                                                          2-Year                                                      5-Year
      OCSPP Costs             2010           2011          Total          2012           2013           2014           Total
PC&B                         $4,137,200    $3,833,600     $7,970,800    $3,368,000     $3,619,200     $3,619,200     $18,577,200
Travel                         $65,500        $34,800      $100,300        $29,000        $30,700        $30,700        $190,700
CG&E – Regional Offices              $0             $0           $0              $0             $0             $0              $0
CG&E – STAG grants &
contracts                    $4,647,700    $5,864,900    $10,512,600    $3,400,000     $3,331,000     $3,331,000     $20,574,600
Sub-total                    $8,850,400    $9,733,300    $18,583,700    $6,797,000     $6,980,900     $6,980,900     $39,342,500
OCSPP Indirect Cost Rate         8.6%          10.2%                        10.2%          10.2%          10.2%
OCSP Indirect Costs           $763,790       $996,690     $1,760,479      $696,013       $714,844       $714,844      $3,886,181
WCF                           $257,100       $321,900      $579,000       $185,400       $260,300       $260,300      $1,285,000
OCSPP Full Costs – Total
direct & indirect costs      $9,871,290   $11,051,890    $20,923,179    $7,678,413     $7,956,044     $7,956,044     $44,513,681

        OECA Costs
OECA costs                   $3,000,000    $3,000,000     $6,000,000    $3,000,000     $3,000,000     $3,000,000     $15,000,000
OECA Indirect Cost Rate           6.4%           7.6%                        7.6%           7.6%           7.6%
OECA Indirect Costs           $191,700       $228,300      $420,000       $228,300       $228,300       $228,300      $1,104,900
OECA Full Costs – Total
direct & indirect costs      $3,191,700    $3,228,300     $6,420,000    $3,228,300     $3,228,300     $3,228,300     $16,104,900

     Total Costs
OCSPP & OECA Full Costs     $13,062,990   $14,280,190    $27,343,179   $10,906,713    $11,184,344    $11,184,344     $60,618,581

Fees collected              $22,010,546    $8,675,000    $30,685,546    $4,059,894     $4,665,182     $4,850,168     $44,260,790
Excess (shortage) of fees    $8,947,556   ($5,605,190)    $3,342,367   ($6,846,819)   ($6,519,162)   ($6,334,176)   ($16,357,791)




     13-P-0163                                                                                                        23
Lead Risk Reduction Program Resources, FY 2010 - FY 2014: Summary of Changes from
   Preliminary (March 12, 2012) Estimates
   OCSPP’s preliminary estimate of costs used a simplifying assumption that all Regional FTE,
     PC&B, Travel, CG&E and WCF were fee related resources. With the additional time
     taken to refine our assessment, OCSPP has worked with all 10 EPA Regional Offices to
     provide realistic data-based cost estimates for each of these cost categories.
   Methodology:
      Step 1: OCSPP-HQ queried each of the Regional Lead Program managers asking them to
         provide best estimates of the proportion of their Lead Program FTE dedicated to fee-
         related and non-fee related activities for Fiscal Years 2010-2012. Program activities
         that should be attributed to fee-related and non-fee-related categories were provided
         to the Regions as guidance for conducting the assessment to ensure that each Region
         was able to distinguish among fee-related and non-fee-related activities in a
         consistent manner. (See below “Lead-based Paint Abatement and RRP Program
         Costs”)
      Step 2: The proportion of each Region’s FTE that was designated as fee-related was
         applied across the remaining Regional cost categories (i.e., PC&B, Travel, and
         WCF), to estimate the amount of each of these cost categories that is used for fee-
         related activities.
      The exercise conducted with the Regional Lead Programs also verified that no Regional
         EPM CG&E resources are used for fee-related activities.
   OCSPP’s preliminary cost estimates provided to OIG were only for FY10 and FY11, as these
     were the only data available for the preliminary analysis. OCSPP’s refined cost estimates
     include FY12 resources derived from the Agency’s FY12 operating plan and FY13
     resources derived from the President’s FY13 Budget. FY14 resources are estimated from
     the FY13 figures. This refined information provides a much more realistic estimate of the
     fee-related costs of the Lead Program for FY10-FY14.
   OCSPP’s preliminary fee revenues provided to OIG were only for FY10 and FY11, as these
     were the only data readily available for the preliminary analysis. OCSPP’s refined fee
     revenue estimates include actual FY12 fee revenue through August 2012 and
     extrapolated from this FY12 trend through September, 2012. The FY13 and FY14
     revenue figures are estimated based on the FY12 figures. This refined information
     provides a much more realistic estimate of the fee revenue for the Lead Program for
     FY10-FY14.




13-P-0163                                                                                      24
Lead-based Paint Abatement and RRP Program Fee- and Non-Fee-Related Activities
   As specified in the Toxic Substances Control Act (TSCA), EPA must establish and
      implement a fee schedule to recover to the U.S. Treasury the Agency's costs of
      administering and enforcing the standards and requirements applicable to lead-based
      paint training programs and contractors.
   Relevant statutory language from TSCA section 402(a)(3):
      Accreditation and certification fees. The Administrator (or the State in the case of an
      authorized State program) shall impose a fee on – (A) persons operating training
      programs accredited under this title; and (B) lead-based paint activities contractors
      certified in accordance with paragraph (1). The fees shall be established at such level as
      is necessary to cover the costs of administering and enforcing the standards and
      regulations under this section which are applicable to such programs and contractors.
      The fee shall not be imposed on any State, local government, or nonprofit training
      program. The Administrator (or the State in the case of an authorized State program)
      may waive the fee for lead-based paint activities contractors under subparagraph (A) for
      the purpose of training their own employees.
   Examples of fee-related activities:
      o	 Review/approval of abatement or RRP training provider applications
      o	 Review/approval of abatement individual applications
      o	 Review/approval of abatement firm applications
      o	 FLPP redesign activities
      o	 Application status inquiries
   Examples of non-fee-related activities:
      o	 Oversight of State and Tribal grants to implement abatement and/or RRP programs
      o	 Outreach to State, Tribes and Territories to discuss possible authorization for
         abatement and/or RRP programs
      o	 Outreach to the public
      o	 Outreach to the regulated community
      o	 Regulation development
      o	 Interpretive guidance activities




13-P-0163                                                                                     25
                                                                               Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator for Chemical Safety and Pollution Prevention
Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Director, Office of Financial Management, Office of the Chief Financial Officer
Deputy Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Deputy Director, Office of Financial Services, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Financial Management, Office of the Chief Financial
       Officer




13-P-0163                                                                                    26
